No.
IN THE SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2020

 

BRANDON RAY BUCKLES,
PETITIONER,
vs.

UNITED STATES OF AMERICA,
RESPONDENT.

Proof of Service

Stephen R. Hormel, declares as follows:

That I am admitted to practice before this Court. On August 10, 2020, the Petition for

Writ of Certiorari in the above-entitled matter was sent by United States mail to the Clerk of the

Supreme Court of United States for filing said Petition; an additional copy of the petition was

serviced on counsel for Respondent by placing the same in the United States mail to:

The Honorable Noel Francisco

Solicitor General of the United States
Department of Justice

950 Pennsylvania Ave., N.W., Room 5143
Washington D.C. 20530

I declare under the penalty of the United States of America, the foregoing is true and

Executed on August 10, 2020, at Spokane Valley, WA.

  
 
     

Stephen R. Hormel,
Attorney for Buckles

1
